<html>
<title> - VOICES OF THE SMALL HANDFUL: 1989 STUDENT MOVEMENT LEADERS ASSESS HUMAN RIGHTS IN TODAY'S CHINA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
VOICES OF THE SMALL HANDFUL: 1989 STUDENT MOVEMENT LEADERS ASSESS HUMAN 
                        RIGHTS IN TODAY'S CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

89-006              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota
                                     
                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
                D. CAMERON FINDLAY, Department of Labor*
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Liu, Gang, senior engineer, Aerie Networks, Denver, CO...........     2
Tong, Yi, associate, Gibson, Dunn, & Crutcher, LLP, New York, NY.     5
Wang, Dan, student, department of history and east Asian 
  languages, Harvard University, Cambridge, MA...................     7


                                APPENDIX
                          Prepared Statements

Liu, Gang........................................................    24
Tong, Yi.........................................................    39
Wang, Dan........................................................    41


VOICES OF THE SMALL HANDFUL: 1989 STUDENT MOVEMENT LEADERS ASSESS HUMAN 
                        RIGHTS IN TODAY'S CHINA

                              ----------                              


                          MONDAY, JUNE 2, 2003

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room 2200, Rayburn House Office building, John Foarde 
[staff director] presiding.
    Also present: David Dorman, deputy staff director of the 
Commission; Karin Finkler, office of Representative Joe Pitts; 
Susan Weld, general counsel; Andrea Worden, senior counsel; and 
Keith Hand, senior counsel.
    Mr. Foarde. Good afternoon. Today, our Commission joins the 
many people around the world who commemorate the 14th 
anniversary of the brutal government suppression of a peaceful 
student and workers' protest in and around Tiananmen Square in 
Central Beijing on June 3 and 4, 1989.
    All of us who care about China, who care about the Chinese 
people and their future, and who care about U.S.-China 
relations remember June 4, 1989, very well, and we continue to 
be affected by it.
    But rather than look back, we have asked our three 
distinguished panelists this afternoon to give us their views 
about the human rights situation in China today and offer some 
thoughts about what the immediate future in China might look 
like.
    Each of our three panelists was active in the democracy 
movement in China during 1989 in his or her own way, and all 
three continued this work after June 4. Each suffered detention 
and punishment for his or her activities. Each eventually made 
his or her way to the United States.
    So we are especially privileged to have Liu Gang, Tong Yi, 
and Wang Dan here this afternoon to share their views with us.
    Panelists, as we have done in previous roundtables, we will 
ask each of you to make a presentation of about 10 minutes in 
length. After 8 minutes, I will tell you that you have 2 
minutes remaining, and that is your signal to wrap things up.
    Inevitably, there are more points that you want to make 
than you have time for, and we will try to pick up those points 
during our question and answer session after each of you have 
had a chance to speak.
    So let me now introduce our first speaker, Mr. Liu Gang. 
Liu Gang started the Democratic Salon in 1988 at Beijing 
University, and also established the Beijing Autonomous 
Association of Students in 1989.
    Both of these organizations played important roles in the 
pro-democratic movement in China, especially the 1989 Beijing 
Spring democracy movement. Most of each group's members became 
leaders of the students at Tiananmen Square.
    Liu Gang and the Beijing Autonomous Association of Students 
organized most of the demonstrations in 1989, and after the 
democracy movement was crushed, Liu was arrested and sentenced 
to 6 years in prison.
    He escaped from China and moved to the United States in 
1996. Since he began working as a scientist at Bell 
Laboratories, Mr. Liu has published many technical papers and 
has been granted over 10 patents.
    We are delighted to have you here this afternoon. Thank you 
for coming all the way to the east coast to join us. Mr. Liu 
Gang.

STATEMENT OF LIU GANG, SENIOR ENGINEER, AERIE NETWORKS, DENVER, 
                               CO

    Mr. Liu. Thank you. First, I want to thank the members and 
staff of the Commission for inviting me to give my views on the 
democracy movement in China.
    The democracy movement of 1989 was not a new occurrence 
that suddenly sprang to life in the spring of that year. The 
movement of 1989 had many ancestors in China.
    All of us who participated could look back in history to 
Sun Yat-sen and Lu Xun for inspiration and even to such 
Communist Party leaders as Peng Dehuai and Hu Yaobang.
    The jailed dissidents such as Wei Jingsheng, Zhang Zhixin, 
and Liu Xiaobo were the fathers of our modern movement. Physics 
professor Fang Lizhi was our teacher and showed us how to stand 
up to the Party and to speak out for democracy and reform.
    The students who joined the democracy movement had the 
opportunity to learn about the importance of non-violence from 
reading about Mahatma Gandhi and Martin Luther King, Jr.
    Certainly the dissidents in other Communist countries were 
examples for us. We learned about resistance from Lech Walesa, 
Vaclav Havel, and Alexander Dubchek from foreign literature.
    The students of the 1980s were different. The student 
movement itself had been preparing for several years before 
1989. Many students, teachers, and middle-level government 
employees had been holding meetings in Beijing and all of China 
to discuss how to organize a democratic movement and what 
democracy would mean to China.
    We even held outdoor meetings, what we call ``Democratic 
Salons,'' on the Beijing University campus. The Beijing Social 
Economic Institute and other groups had laid the groundwork for 
the democracy movement, and many of their members played a key 
role in Tiananmen Square.
    Only the timing of the demonstrations was spontaneous. It 
was initiated by the death of Hu Yaobang, who had been 
dismissed in disgrace for being too soft on the students who 
had held demonstrations in 1986.
    So none of the planners controlled the actual start of the 
movement. It just erupted hours after Hu's death in Beijing and 
on campuses throughout China. Chinese students in 1989 were 
much more active than other groups. There are many reasons for 
this.
    Groups other than students, such as workers and the mid-
level employees, were easily punished by the Chinese Communist 
Party [CCP] Government. Since they could lose their jobs and 
even be jailed, it was hard for them to join the democracy 
movement in China.
    However, once the movement had been started and many people 
became involved, it became harder for the government to track 
down all the participants, so workers and other groups would 
feel less risk and join the democracy movement.
    Many workers joined 1989's democratic movement because of 
massive corruption they had to deal with daily. Their 
participation also shows that most of the Chinese want to enjoy 
freedom and want to change the Communist regime. They were 
fully aware that the movement was about freedom.
    The Voice of America [VOA] is still one of the best ways of 
communicating with the Chinese people and getting the truth 
out. Before and during the 1989 democracy movement, we could 
find out what was happening in the world and we could speak out 
to the world through the VOA.
    The VOA also gave us the news inside of China. We had 
pretty primitive communications in 1989, fax, long-distance 
phone lines, and students traveling from one place to another. 
All of this took money, when the students had very little 
money.
    But Voice of America broadcasts every day told us in what 
cities the demonstrations had started and how large they were. 
From VOA, we knew the Solidarity labor union in Poland, the 
Prague spring, as well as other democratic movements happened 
all over the world.
    Then we were inspired to have our own solidarity union and 
to start our Beijing spring. I do not think we could have made 
the advancements we did without the VOA. I hope that the U.S. 
Government will continue to support such kinds of priceless 
services, including VOA and Radio Free Asia.
    Western journalists broadcasted our story and interviewed 
many Chinese students. They explained our positions to the 
outside world and other parts of China. Western news reports 
were copied and circulated through the student community. Our 
petitions are usually first broadcast by Western news agencies. 
Western diplomatic officials in China also played important 
roles in the democratic movement in China.
    Winston Lord, the former American Ambassador in Beijing, 
and Betty Bao, his wife, frequently gave speeches at our 
Democratic Salon and other cultural seminars in Beijing. Their 
attendance and speeches inspired our Chinese people to a great 
degree. The opportunities to meet with Western diplomatic 
officials are considered a great honor for most Chinese.
    I must say that most Chinese, including high-ranking CCP 
officials, would be more interested in meeting with the 
American Ambassador than meeting with the highest ranking CCP 
officials, including Deng Xiaoping, at that time.
    After Winston Lord gave a speech on June 1, 1988, at our 
salon in Beijing University, some other Western diplomatic 
officials, including those from Britain, Australia, and even 
some high-ranking CCP officials, including Wang Meng, the 
former minister of the Ministry of Culture, and Deng Pufang, 
the eldest son of Deng Xiaoping, all showed interest in giving 
speeches to our salon.
    By meeting with Western officials, we Chinese not only knew 
more about the way of freedom, but also felt more safe and 
protected. The CCP Government seldom punished people because of 
contacts with Western officials. If anyone was punished because 
of these contacts, we believed that Western countries would 
strongly appeal for our freedom and human rights.
    Believe me, the CCP Government listens more to the American 
Government, to the American Ambassador, than to the Chinese 
people. Furthermore, the Chinese people respect the American 
Ambassador more than the Chinese Government. So, I wish that 
the current American Ambassador in Beijing would do the same as 
Winston Lord and Betty Bao did during the 1980s.
    I would also like to mention Congresswoman Nancy Pelosi. 
When I was in prison, my sister delivered to me some postcards 
from her. I heard that she went to Tiananmen Square and 
expressed her concern about human rights in China when she 
visited in China in 1992.
    I was really excited and inspired when I found out that she 
and other American politicians were consistently appealing for 
us. I am really thankful to her and all other Congress members 
who paid attention to my case, and the cases of other who were 
imprisoned for supporting democracy in China.
    Finally, my thanks to all of you for your consistent 
concern and appeals for releasing Chinese political prisoners. 
I want to thank the American people for providing us with 
political asylum here.
    I hope you do not forget the political prisoners, including 
Wang Bingzhang, Wang Youcai, Yao Fuxin, Xiao Yunliang, Huang 
Qi, as well as the thousands of Falun Gong practitioners who 
are jailed in China.
    I hope you will continue to speak out for them until all 
political prisoners are released. Please remember that your 
voices are a very effective tool when talking with the CCP 
Government.
    Thanks.
    [The prepared statement of Mr. Liu appears in the 
appendix.]
    Mr. Foarde. Mr. Liu, thank you very much.
    Our next panelist is Ms. Tong Yi. Tong Yi was a student at 
the China University of Political Science and Law in 1989 and 
served as first secretary to the Beijing College Students 
Dialogue Delegation during the Tiananmen demonstrations.
    She later served as an international liaison to Wei 
Jingsheng, and for this work was detained and sentenced to 2\1/
2\ years of administrative detention in a reeducation through 
labor camp in 1996.
    In 1997, she came to the United States and subsequently 
obtained a law degree at Columbia University. Information that 
she provided about her time in reeducation through labor formed 
the basis of Human Rights in China's first report on the 
practice of ``custody and repatriation [C&R].'' The report was 
called ``A Report on Administrative Detention Under Custody and 
Repatriation,'' which was released in 1999.
    Ms. Tong currently serves on the board of directors of 
Human Rights in China and is an associate in the litigation 
department in New York city of the international law firm, 
Gibson, Dunn, & Crutcher.
    Ms. Tong.<plus-minus>

STATEMENT OF TONG YI, ASSOCIATE, GIBSON, DUNN, & CRUTCHER, LLP, 
                          NEW YORK, NY

    Ms. Tong. Thank you very much for having me here. Today I 
am going to talk about a specific administrative punishment 
system in China, ``custody and repatriation.''
    While the SARS outbreak has drawn attention all around the 
world, an individual murder case has attracted attention inside 
China. The case exposes the serious police abuse that routinely 
takes place within the PRC's custody and repatriation system.
    My own personal impressions of this system are very vivid, 
because in 1996, I spent a hellish 11 days within its clutches. 
I am now glad for the opportunity to call your attention to 
this system of police-sponsored kidnapping that relies on 
``regulations'' that are unconstitutional by PRC legal 
standards. On the C&R issue, China's human rights certainly 
have not improved since 1989. They clearly have gone the other 
direction.
    Sun Zhigang, a college graduate from Hubei Province, went 
to Guangzhou early this year to take up employment. On the 
night of March 17, police in Guangzhou detained him for failing 
to show a temporary resident permit and sent him to a C&R 
center. Three days later, a friend of Sun's was notified to 
collect his body from the center's infirmary.
    Sun's parents in Hubei, incredulous at what had happened to 
their son, traveled to Guangdong and approached government 
agencies seeking a ``reason'' why their son had died.
    After a month of watching their inquiries fall upon deaf 
ears, they decided to bring the story to the Southern 
Metropolitan News, which did its own investigation and then 
published a full account on April 25. Their conclusion was that 
Sun was beaten to death during his 72-hour stay in the C&R 
center.
    Other local and national newspapers then picked up the 
story and it quickly became a national issue. Controversy now 
centers on three questions: (1) the criminal investigation of 
cases like this; (2) the prevalence of police brutality; and 
(3) the constitutionality of the C&R system.
    The C&R system arose from a 1961 Party directive entitled 
``Forbidding Free Movement of the Population.'' In 1982, the 
State Council added ``Measures for the Custody and Repatriation 
of Vagrant Beggars in Cities.''
    The ostensible purpose of these orders was to provide 
shelter for homeless people in cities. More fundamentally, 
though, the goal was to strengthen the ``hukou'' registration 
system, which privileges urban over rural residents in many 
ways.
    A full account of the evils of the ``hukou'' system is 
beyond my scope here, but the system's fundamental purpose from 
the government's viewpoint has always been to enforce the 
social stability upon which the security of its political rule 
depends.
    The Party and State Council directives provide a warrant 
for arresting and deporting back to the countryside any farmer 
who enters a city ``illegally,'' even sometimes any urbanites 
who came from another city illegally.
    Because of the original claim of connection between C&R and 
welfare, the day-to-day activities of C&R centers fall under 
the Ministry of Civil Affairs. In practice, however, the public 
security apparatus, especially local police, run the system.
    Detainees in C&R centers tend to be the poor, the mentally 
ill, migrant workers, women and children who have been 
kidnapped for sale on an underground market, and 
``petitioners,'' meaning 
people who have entered cities to seek redress of injustices 
from government officials.
    Estimates of the numbers detained since 1989 run into the 
tens of millions. According to the recent report by Human 
Rights in China, in 2000 alone the number was 3.2 million. So 
now C&R really is widely and expansively used by the Chinese 
Government to control population movement.
    High-sounding language about ``welfare'' notwithstanding, 
the C&R system for more than a decade has been dominated by 
extortion. Police use it to kidnap the powerless and demand 
ransom from their families or friends.
    The state goes along with this because it serves 
``stability,'' and because the system can be used to clean up 
riffraff, and thereby ``beautify'' city streets in advance of 
august events like a Party Congress, the visit of a foreign 
dignitary, especially during President Bush's visit, or a bid 
to host the Olympics. All such values trump the rights of 
ordinary citizens.
    Arbitrary detention. The most vulnerable citizens are 
``Three No's'' people, those with no ID card, no temporary 
resident permit, and no work permit. Even people who have such 
documents can be swept up if they dress shabbily, have funny-
sounding accents, or seem to loiter.
    Recently, a migrant worker who was picked up for his 
outlandish accent made the mistake of showing his documents, 
only to have he police rip them up and bring him to a C&R 
center anyway.
    Physical abuse. The conditions in the C&R centers are about 
as bad as one can imagine. Food and sanitary conditions are 
abominable, worse than in regular prisons and labor camps.
    I had very acute experiences in three places, one in the 
detention center, one in the ``reeducation center'' the labor 
camp, and one in the C&R center. Among these three, C&R's 
conditions definitely were the worst.
    Detainees are routinely subjected to beatings by police or 
by cell bosses. Sun Zhigang is by no means the only detainee to 
have died from the torture and the beatings.
    Extralegal ransom. For the police, the possibility of using 
the C&R system to collect ransom becomes an incentive to detain 
as many people as possible. With the collapse of public 
morality during China's post-Mao years, added to the devil-
take-the-hindmost pursuit of money, there are no effective 
brakes on this kind of abuse of police power. C&R becomes an 
open field from which police rip off whatever they can.
    I experienced a small taste of this practice in my own 
case. In late 1996 when I was released from 2\1/2\ years of 
reeducation through labor, I traveled from Wuhan to Beijing to 
see my sister. Police met me at the Beijing railway station and 
sent me straight to an C&R center with no explanation.
    I spent 11 days without enough food. Then the police 
repatriated me back to Wuhan. When I arrived, my parents were 
forced to pay for my room and board during C&R and my train 
ticket back.
    After the media publicized Sun's story, the central 
government very quickly released investigation results, where 
30 suspects have been arrested. None of them were police 
officers. But among the Chinese, people are very suspicious 
about the results. This was widely spread among the Chinese who 
believed that Sun Zhigang was beaten to death by uniformed 
policemen.
    Another interesting development is that three citizens 
petitioned the National People's Congress to question the 
constitutionality of the whole C&R system. They argued that, 
according to article 37 of the Constitution, a citizen's 
freedom can only be infringed through court with a trial.
    Now, the C&R system can deprive citizens' freedom just 
randomly, just according to the whim of the police. So anybody 
who's interested in China's rule of law development may follow 
this case very closely.
    In conclusion, I call your attention to the very horrible 
custody and repatriation system, and hope you can put whatever 
pressure you can to abolish the entire system.
    Thank you very much.
    [The prepared statement of Ms. Tong appears in the 
appendix.]
    Mr. Foarde. Ms. Tong, thank you very much, not the least 
for your discipline. You were right on time. We appreciate 
that.
    Our third panelist this afternoon is Mr. Wang Dan. In 1989, 
Wang Dan was a freshman at Beijing University and became a 
leader of the Autonomous Federation of Students. After the 
student movement was suppressed on June 3 and 4, Wang was 
arrested and sentenced to 4 years in prison.
    Released in 1993, he was re-arrested in 1995 for subversion 
and sentenced to 11 years. In 1998, after 3 more years in 
prison, he was released on medical parole and came to the 
United States, where he is currently a graduate student in 
history and East Asian languages at Harvard University.
    Welcome, Wang Dan.

STATEMENT OF WANG DAN, STUDENT, DEPARTMENT OF HISTORY AND EAST 
       ASIAN LANGUAGES, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Mr. Wang. Thank you very much. First, I want to thank the 
Commission for allowing me the opportunity to share some of my 
opinions and ideas. It is my great honor to be able to speak 
before you today.
    It has been 14 years since the June 4 Tiananmen Massacre of 
1989. If we want to attempt to summarize the changes in China 
over these past 14 years, I think there are three things that 
need to be noted.
    First, I think we can all agree that there has been much 
progress in China in terms of economic freedoms. Second, even 
at the social level, people have more space for freedom.
    But in terms of democratic politics and political reform, I 
can say that there really has been no change or progress 
whatsoever. The lack of transparency and openness was most 
notably revealed in the recent case of the cover-up of the SARS 
epidemic.
    With respect to this latter situation, I have five points 
to share with you today. I think we can admit that there has 
been some progress on human rights. But I think that this 
progress, at least partly if not completely, is due to the 
pressure from the international community.
    As an example, we can look at the period between 1992 and 
1997. During that time, there was consistent, considerable 
pressure from the West. As a result, human rights violations in 
China 
decreased notably.
    After 1997, however, when the pressure was relaxed, there 
was substantial erosion of China's human rights record. 
Therefore, I strongly believe that the United States and other 
Western countries should keep up their pressure on China to 
improve its human rights situation.
    I disagree with those who fear that if the United States 
keeps up its human rights pressures on China, that this will 
have a negative effect on Sino-U.S. relations.
    Second, it is obvious that China still lacks a mature civil 
society. However, over the last 14 years we have witnessed the 
gradual emergence of a developing civil society. I think it is 
very important that the United States pay attention to these 
sprouts of civil society in China and do all that it can do to 
cultivate them.
    I believe that it is short-sighted for the U.S. Government 
only to focus on the actors in the Chinese Government and the 
Chinese Communist Party. Therefore, I think that U.S.-China 
policy should move from only on human rights issues to other 
issues of political reform and democratic politics.
    One of the things that the United States can do is to 
provide support for NGOs and universities in China as a way to 
promote social contacts.
    Third, as the United States is facing the challenge of 
terrorism in the new century, I can completely understand the 
necessity to strengthen its strategy against terrorism.
    However, I am worried that an unfortunate side-effect of 
this strategy may be a tightening of the U.S. policy that 
allows Chinese students and scholars to come to the States for 
exchanges, studies, and visits.
    As one of the beneficiaries of this program myself, as well 
as a beneficiary of the human rights pressure from the 
international community, I sincerely hope that this will not 
occur.
    The current generation of overseas Chinese students sooner 
or later may return to China, and I believe they will be a 
motivating force for the further development of reform in 
China, including 
political reform.
    Therefore, I think it is important that the U.S. Government 
allow this door to remain open, and to even open it wider by 
expanding its contacts with the Chinese students already in 
America.
    Fourth, it is not enough for the U.S. Government merely to 
take a general stand to promote democracy in China. I think a 
more detailed and in-depth strategy is required, for instance, 
based on specific cases such as projects promoting the rule of 
law, freedom of the press, or workers' rights.
    There are many worthwhile projects that are being 
undertaken in China today and my colleagues and I would be 
happy to introduce them to you. However, I think a note of 
caution is necessary with respect to support from the United 
States to projects being carried out within China.
    This is a very sensitive issue. There is a thin line 
between seeing support for such projects because they are meant 
to help China and seeing support for such projects because they 
are meant to prevent China from becoming strong.
    It is very easy for many Chinese people to misinterpret the 

intentions from abroad. Therefore, it is advisable to first 
make contact with the liberal intellectuals in China who are 
more open-minded about aid and support from abroad.
    Finally, when I noted above that the United States should 
transfer its focus from human rights issues to democracy, I do 
not mean to imply that human rights are not important. I would 
like to use this chance to raise the cases of Wang Bingzhang, 
which I am sure you are all aware of; Yang Jianli, who 
attempted to return to China last year and since then has been 
held incommunicado by the Chinese Government; and Li Hai, who 
reported information to the outside world about prisoners in 
China and as a result was sentenced in 1995 to 9 years; and 
Yang Zili, who organized political discussions and now faces a 
long-term sentence; and Huang Qi, who uses the Internet to 
spread ideas of political reform and last month was sentenced 
to 5 years in prison.
    I think China is now entering a crucial period. It is 
impossible to predict whether future development will be 
positive or negative. But there is one thing that we certainly 
can all be sure of: there are a number of things that we on the 
outside can do to help China. Even though I am studying now in 
America, my long-term plan remains to return to my country.
    Working together with a group of young, educated Chinese in 
the United States and elsewhere who are concerned about China's 

future, we hope to increase cooperative efforts with all parts 
of American society, including Congress, to bring about 
eventual political change in China.
    Thank you very much.
    [The prepared statement of Mr. Wang appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Mr. Wang.
    Three excellent presentations, lots of interesting ideas, 
with a look backward, but also a look forward.
    We would now like to go to our question and answer session. 
Each of us up here will get the chance to ask and listen to the 
responses to questions for 5 minutes, then we will pass the 
privilege of questioning you on to another colleague. We will 
keep going until we either run out of steam or 4 o'clock, 
whichever comes first.
    I would like to exercise the privilege of the Chair and ask 
a question or two to begin with.
    The first question is addressed to Ms. Tong. The photograph 
that you showed, I want to just establish for the record what 
it is so we can get it into the written record. It is 
definitely a picture of a prisoner being abused by uniformed 
personnel, right?
    Ms. Tong. Yes.
    Mr. Foarde. Do you have any idea who the person is or when 
the picture was taken, and where it was taken?
    Ms. Tong. I do not. I just received this photo in my e-mail 
box last week, or 2 weeks ago.
    Mr. Foarde. All right.
    Ms. Tong. It is widely believed that Sun Zhigang was beaten 
to death in this fashion. In this photo, the victim is 
apparently in the police station, beaten up by three uniformed 
police officers.
    Mr. Foarde. And he looks like he is being forced to drink 
something, probably.
    Ms. Tong. No. I think he is in a coma already and the 
police are trying to wake him up by pouring water on his face.
    Mr. Foarde. All right.
    Mr. Wang. Actually, I found this photo on the Internet. 
Some people just change the picture. They asked, who took this 
picture? The person who distributed this picture said that some 
of the friends of the police took the photo, and the person who 
was persecuted there was a Falun Gong practitioner. Some people 
asked why these policemen can permit people to take such 
pictures.
    Mr. Foarde. People take pictures of very strange things, I 
agree. But there is no telling exactly when or where the 
picture was taken, as far as you know. It is circulating 
relatively widely in China, is that correct?
    Mr. Wang. Right.
    Ms. Tong. Right.
    Mr. Foarde. All right.
    Ms. Tong, I would ask you another question or two about 
custody and repatriation, an issue that we have been looking at 
and are very concerned about, as you are.
    Are the authorities using C&R as a technique in either 
Beijing, Shanghai, or elsewhere to relocate residents for the 
purposes of redeveloping neighborhoods for modernization?
    Ms. Tong. I think not. I think the C&R system is designed 
to keep outsiders, especially people from the countryside, from 
entering into the cities. But the current economic developments 
made the leadership realize that restriction on the movement of 
the population is impossible, so they set up this very 
complicated regulation system.
    In each province, in each city, they have a local 
regulation to limit the free movement of the outsiders. The 
victims of this system mostly are the people from rural areas, 
and sometimes people like me.
    I come from Wuhan, and when I went to see my sister in 
Beijing, right at the railway station, the police picked me up, 
without telling me why they detained me, why they sent me to 
the C&R center.
    Later, the Wuhan police told my parents at their end that 
my 
arrest was because I did not have an ID card. I did not have a 
residency permit card or a work permit card, either, so I was a 
``Three No'' person.
    But my parents said, ``Oh, she went to Beijing to pick up 
this ID card from the Beijing police. That is why she went 
there in the first place. How could you detain her? ''
    Also, they did not give me a 3-day grace period. According 
to the regulation, everybody who goes to a different city has a 
3-day grace period. Within those 3 days you can go to report to 
the local police and register. In my case, I was picked up 
directly from the railway station.
    So they used this system to persecute political dissidents 
as well. In the Beijing center, there is a group of 
petitioners. Their fate is least known to the outside world. I 
had very intensive interaction with them during my 11 days, I 
feel as though these people were the real heroes. They got no 
attention, but they persisted. The injustice imposed on them 
was horrendous.
    Mr. Foarde. I am out of time. I am going to yield the floor 
to my friend and colleague, Dave Dorman, who is the deputy 
director of the Commission staff and represents the office of 
our Co-chairman, Senator Chuck Hagel.
    Dave.
    Mr. Dorman. First of all, I would like to echo what John 
just said and thank each member of this very distinguished 
panel who came today to speak to us. We are addressing an 
important issue today and are certainly grateful for you coming 
to help us understand it.
    I would like to focus my question on a comment that was in 
Mr. Wang Dan's testimony, and perhaps ask each of you to 
comment on that, if you would be willing.
    In your testimony, Wang Dan, you mentioned that there have 
been improvements in economic freedom in China, perhaps 
improvements in social freedom as well, but absolutely no 
change in terms of political freedom or democratic reform.
    As you know, there are many people in this country who 
believe that increased economic freedom, and perhaps increased 
social freedom, may create the environment, or may create the 
open space necessary, for political freedom to develop. I am 
wondering the extent to which you think that is possible in 
China. Could each of you address this issue?
    Mr. Liu. By all means, I personally disagree with this 
point. I know where this point comes from, but I disagree with 
it. I do think we have a real middle class in China. There are 
officials that have a lot of involvement with the government. 
They are now the real middle class. So there is no hope for the 
middle class supporting democracy. That is one problem.
    I think even though we have economic freedom, we are not 
seeing democracy, because of what happened in Malaysia or 
Indonesia. They all had a very good economy a long time ago, 
and then they got into trouble. So these cases show me that is 
not a necessary situation in the future.
    Ms. Tong. I want to add a point. I call your attention to 
the Chinese community here in the United States, which is a 
highly educated and most cultivated group of people among the 
Chinese. Yet most of them want to go back to business in China 
and they try to take advantage of both worlds.
    Here, they can take advantage of political freedom. They 
have freedoms of all kinds. Then in China, they can take 
advantage of the economic development. Yet, even under the very 
tight political oppression, they can still develop. Some people 
really become millionaires overnight, and they enjoy that.
    I am trying to point out that this phenomenon needs your 
attention. I totally disagree with the premise that economic 
development can lead to political freedom in China 
automatically. The fact of the matter is that the opposite is 
true.
    The Chinese Government has actually used the political 
control system to control the Internet, for example, which is a 
new phenomenon, and used economic opportunity to develop their 
control system.
    For example, they give money to the State Security Ministry 
and also give money to the Public Security Bureau so that they 
can better control the migration of the population, and their 
freedom of speech. They also control the media. The recent 
events have shown that the government has more power and more 
capacity to do that.
    Mr. Wang. Actually, I want to say that most Chinese want 
freedom, both economic and political. But which will come 
first? I think most Chinese do not care whether economic 
freedom comes first or political freedom comes first. They will 
be fine. They are hoping for both of them. But no one knows 
what the relationship is between the two, if economic freedom 
comes and political freedom follows up immediately.
    Mr. Dorman. Thank you very much.
    Mr. Foarde. Next, I would like to recognize a colleague 
representing the office of Congressman Joe Pitts of 
Pennsylvania, Karin Finkler.
    Karin.
    Ms. Finkler. My question is for Tong Yi about the C&R 
centers. Can you give some insight into how you think that U.S. 
officials should address this issue with Chinese officials in 
discussions or through whatever method you think?
    Ms. Tong. The C&R system is like the ``Reeducation Through 
Labor'' system, which is an administrative punishment that can 
deprive normal citizens of their freedom without going through 
a trial or legal procedure. I think another aspect of the Sun 
Zhigang case, which I did not have time to address, is the two 
petitions made to the National People's Congress [NPC] 
recently, one on May 14 and one on May 23.
    Eight legal scholars filed two petitions to the NPC, saying 
that the Administrative Punishment Law and the Legislation Law 
both provide that a person's freedom cannot be infringed upon 
just by the whim of police officers. The conditions under which 
the police can do this should be promulgated by laws. And laws, 
by definition, should only be passed by the NPC, not the State 
Council or the councils of each province.
    This challenge to the constitutionality of the C&R system 
is a phenomenal development in China because it means that 
Chinese citizens used the Constitution as a weapon to restrain 
the power of the State entities. This is the first incident.
    So I think the U.S. Government may follow up from the rule 
of law perspective with this constitutional challenge. I think 
it is a very important development. I am very eager to see how 
the National People's Congress will respond to these two 
petitions.
    Ms. Finkler. Thank you.
    Mr. Foarde. We will go on and recognize the general counsel 
of the Commission, Susan Roosevelt Weld.
    Susan.
    Ms. Weld. Thank you very much.
    I wanted to say, in 1989 the demonstrators called for 
democracy in China. One of the things that we know is that the 
idea of democracy is seen differently from what we all see 
democracy to mean. Do you agree with that statement or do you 
see that the idea of democracy you feel is right for China now 
is the same? I will address it first to Wang Dan, then I would 
love to hear from the rest.
    Mr. Wang. As a student, democracy for me is always 
political. But after 4 years in jail, then coming over to the 
United States, especially since I had a lot of experience with 
American society and American democracy, it is not only 
something political, it is also something cultural or 
educational.
    So that is why I pay more attention to civil society more 
than I do to political democracy. I think the most important 
thing is that we must have a very strong and mature civil 
society as a basis of democracy. So then will follow democracy 
due to civil society.
    Mr. Liu. From my understanding, and for most of the 
Chinese, democracy is something like freedom. They want freedom 
of speech, they want freedom to move to other cities, and other 
freedoms.
    Then for people who are in prison, what does freedom mean? 
That is, to escape from prison or be released. So most people 
understand that if they do not have freedom, they know what 
freedom they want. Most people just want freedom like that.
    Ms. Tong. I just want to add that my initial understanding 
of democracy, just like Wang Dan told you, now I sense that the 
rule of law really is the core of how democracy can really 
function in our daily lives. Just from my study and my practice 
in a law firm, I have a very acute sense that China needs to 
have a true rule of law, not rule by law, to be able to develop 
a functional democracy.
    So I think the legal profession in China needs to beef up 
its basic understanding and be more independent. An independent 
judiciary is also essential. The government should be able to 
fulfill the commitment they make in the Constitution and in the 
recent laws they promulgated, they passed, like the Legislation 
Law.
    The C&R system obviously is contradictory to the spirit of 
the Legislation Law. How do you correct existing local rules 
according to this law? That is a very practical issue for the 
Chinese leadership right now.
    Mr. Foarde. Susan, you have a couple of minutes. Do you 
want to ask another question?
    Ms. Weld. Let me pass it to Keith and I will get another 
chance.
    Mr. Hand. I had a question about the scholars' petition and 
the Sun Zhigang case. This is something that the Commission is 
watching with a great deal of interest. It seems to be coming 
on the heels of some very significant discussions of 
constitutional law in China such as Hu Jintao's speech in 
December on the 20th anniversary of the 1982 PRC Constitution 
discussions in the National People's Congress session on 
constitutional enforcement, and discussion on constitutionalism 
in the Chinese media.
    Do you see these events as connected to the scholars' 
petition? Also, what do you think the most likely response of 
the National People's Congress Standing Committee will be? This 
issue, I imagine, presents a very difficult problem for the 
National People's Congress Standing Committee.
    Ms. Tong. Thank you for the question. That is a very 
pointed question, but I do not think I can give you an answer. 
I do not think that the National People's Congress can give you 
a straightforward answer either, because if it answers no, it 
will ignore the petition.
    It would mean that the National People's Congress will 
ignore article 37 of the Constitution, which means the 
legislation itself ignores the Constitution, which looks very 
bad in front of the world, in front of the Chinese people.
    Second, if the NPC is willing to say yes, the C&R system 
violates the Constitution, then it means that it has to reform 
the whole ``hukou'' system, which is the core of the Chinese 
control system. The evils of the ``hukou'' system are myriad. 
There are just so many bad things that happen.
    I will just give you one example. I do not want to compete 
against my colleagues here, but I will just give you one simple 
example. I grew up in Wuhan. I had to score 100 points more in 
order to get to the same college that my peers from Beijing or 
Shanghai went to. It still stays in that fashion.
    People who grew up in Shanghai or Beijing are very 
privileged. They develop this snobbish attitude toward people 
from other provinces or from the countryside. This cultural 
attitude is deeply 
entrenched and it is very hard to shake the ``hukou'' system in 
China.
    So I do not know how the National People's Congress will 
respond, but I am very glad that there are legal scholars in 
China that dare to challenge this existing system, who dare to 
speak out against this horrendous system. I hope we can succeed 
eventually. This is a really phenomenal development.
    Mr. Foarde. All right. Ms. Tong has expressed her views.
    Mr. Wang.
    Mr. Wang. I cannot see the connection between these 
scholars, with encouragement from government. Since there is a 
group of intellectuals, it is time for them to appeal for 
political reform and legal reform.
    Mr. Foarde. Let us go on. I would recognize our friend and 
colleague, Andrea Worden, also a senior counsel with the 
Commission staff.
    Andrea.
    Ms. Worden. Thanks. It is an absolute honor and privilege 
to be here today. During April through June, 1989, I was in 
Changsha, Hunan teaching English. As you all probably know, 
every day tens of thousands of people--students and workers--
were out on the streets protesting in Changsha, including after 
June 4.
    After I left Changsha I kept in touch with many of my 
students. In fact, many of them are now in the United States.
    But during the few years after June 4, 1989 I asked, ``So 
what is going on politically? '' And they said, ``They were not 
talking about politics; just that they were interested in 
making money. Politics will come later; it may be many years 
away,'' they said. But they were focusing on trying to make 
money because they had the freedom to do that.
    So my question is--I guess, first to Wang Dan, then I would 
like to hear from the rest of the panel--how political are 
Chinese students today? Is there still a sense of just wanting 
to focus on making as much money as they can because they have 
learned a lesson from Tiananmen? For example, are there salons 
like the one you started?
    Mr. Liu. Actually, I originally prepared a presentation on 
the 
relationship of the democracy movement and the freedom they 
had. In China, the more freedom people have, the more freedom 
they want. During the 1980s, the CCP, Hu Yaobang, and Zhao 
Ziyang, at that time both of them wanted to give more freedom 
to the Chinese people.
    So at that time we enjoyed more freedom than people enjoy 
now. I think in Chinese history, especially after the 
Communists took control of China, that is the first time that 
the Chinese had more freedom. So the demonstrations, the 
democracy movement, almost every year we held that kind of 
demonstration. Since 1985, I have set up several discussion 
groups in Beida and in some hotels. And other high-ranking 
officials joined the discussion groups.
    At that time, some of them wanted to arrest me, but they 
did not do that because at that time they thought that type of 
activity was good. Now I believe that if I did the same thing 
in China, I would be sentenced to at least 15 years just for 
setting up such panel 
discussion groups.
    Wang Juntao was sentenced to 10 years, and Yang Zili was 
sentenced to 8 years just because they set up such discussion 
groups. In 1986, thousands of people joined our discussion 
groups.
    Ms. Tong. I just wanted to add one aspect, and that is the 
Internet's impact on the Chinese. I think, due to people's 
nature they are interested in everything. So they posted 
political commentary on the Internet, like Liu Di, who is a 
very young student at a university and who is detained right 
now for her very pointed comments on the Internet.
    The Internet in China is a very complicated story. You 
cannot say that, since you will be behaving this way, all the 
other Chinese students will behave in this way. For example, 
after the embassy bombing, you can tell the Chinese students' 
reaction to what happened at the embassy. They threw stones 
into the compound. Yet the next week, they were lining up for 
visas. So this fundamental cynicism also exists there.
    I think another aspect is this ``hukou'' system, again. So 
many Chinese students who go to college from other provinces, 
for example, go to a Shanghai college or a Beijing college, but 
after their graduation they cannot stay there. All of them 
cannot stay in Beijing or Shanghai. So what's their venue? They 
want to come here to the United States to study and have a 
better life here.
    So this is an overflow of the ``hukou'' system. You might 
pay more attention to this unfair, discriminatory system. The 
United States actually feels its impact and should pay 
attention to that.
    Mr. Foarde. That is very useful. We are going to continue. 
I would like to pick up the questioning and ask Wang Dan, in 
your presentation you mentioned an issue that is very important 
to me, and I think to all of the Commission members as well, 
and the staff here.
    That issue was when you said that there are those people in 
China, young people, some old people, who believe that the 
United States wishes to keep China weak and powerless, and 
dominate China and keep China from developing.
    I am wondering what you think we could do as a people, the 
American people, and as a government, the U.S. Government, to 
combat that impression.
    Mr. Wang. My concern is the trend toward nationalism. I 
think nationalism is a very important issue. So due to this 
reason, I think there are two things we should be careful of. 
One thing is to help the American people know more about China.
    I do not think the American people know China very well 
now. So, just enhance their understanding of what is happening 
in China. This is important. Another thing is to try to pay 
more attention to China. We have a responsibility.
    Mr. Foarde. I am glad you mentioned that, because one of 
the answers I always give to my Chinese friends when discussing 
this very question, is that the thing that should bother you 
the most about the United States, about the American people, is 
how little they know about China. Normally I get a very funny 
reaction from my Chinese friends when I say that, but I am glad 
that you said it as well.
    I would like to pick up on another theme that you just 
mentioned in your response, and perhaps ask all three panelists 
to address it. That is whether or not China's increasing 
participation in the international community is having any 
positive effect. China has been a longtime member of the United 
Nations and participated in the U.N. system, is newly in the 
WTO, and is more and more integrated into APEC and other 
regional bodies.
    Is this helping the Chinese Government become more 
sensitive to international human rights standards and improved 
human rights practices or is it having no effect? What do you 
think? We can start with Wang Dan, if you would like.
    Mr. Wang. Not only the government, but people have a chance 
to go to Western countries.
    Mr. Foarde. Ms. Tong.
    Ms. Tong. I think the interaction between the world and 
China is very important because the Chinese people, especially 
the Chinese leaders, always view their prestige by their 
contacts with 
foreigners. This is a very snobbish view, but it is there. 
Chinese people who can act more sophisticated with foreigners 
will be viewed higher than other Chinese. That is just the way 
it is.
    Also, I think China's accession to the WTO is very helpful 
to push legal reform, at a minimum, because a lot of Chinese 
regulations have to be abolished and redesigned to fit into the 
scheme of the WTO. So that is a very strong incentive, so I 
think that is positive.
    On the other hand, I think that U.S. Government officials 
should have more direct interaction with the Chinese people, 
not only with Chinese Government officials. That is just one 
dimension.
    I think if you go out there more to reach out to a large 
group of citizens to help them understand what the American 
people are, the U.S. Government is for, their nationalism will 
probably decrease rather than increase.
    Mr. Foarde. Mr. Wang.
    Mr. Wang. Actually, I think that the more interactions 
between the Chinese culture and the international community, 
the better for the Chinese people. Actually, they give all of 
the rules and they do not follow the rules themselves. No one 
can control them.
    But once they join international organizations like the WTO 
and such kinds of organizations, finally they find out that 
they have to follow the rules. In these organizations, they are 
willing to follow these rules. I think for the Chinese people, 
there is a history of pushing the government involvement so 
that they follow the rules. The people know that there are some 
organizations working on that in China.
    Mr. Liu. Could I have one comment?
    Mr. Foarde. Please go ahead, Mr. Liu.
    Mr. Liu. There are many ways for Western countries to help 
the Chinese--many travelers, and the government officials 
travel widely. So what the U.S. Government can do is give them 
more support, send them to China.
    Mr. Foarde. Thank you.
    Let me pass the floor on to Susan Weld. Susan.
    Ms. Weld. Thank you very much. I want to go back to some of 
the detention camps. Especially this question is for Tong Yi. I 
believe there are special camps for drug addicts. Is that so?
    Ms. Tong. What?
    Ms. Weld. For people who are addicted to drugs.
    Ms. Tong. Yes.
    Ms. Weld. Are they run, as far as you know, more or less 
the way the C&R camps are run? What systems are there? I am 
familiar with ``laojiao'' and C&R and the drug camps that are 
similar.
    Ms. Tong. Yes. The drug camps can detain people for 2 
years. So that is very similar to reeducation through labor 
camps. The C&R system really detains people just temporarily, 
for 10 or 12 days, except for those petitioners.
    Those petitioners sometimes stay there for 6 months. And 
each time they were detained, the duration is longer than the 
previous one, as a way to punish them from coming into Beijing 
to petition again.
    So far, I think the reeducation through labor and the drug 
camps and the C&R centers--one that I know well--I think these 
are all extralegal mechanisms in place.
    Ms. Weld. So these would all be forbidden by that article 
of the Constitution that you mentioned.
    Ms. Tong. Yes.
    Ms. Weld. All right. But the petition that has been filed 
so far, is it filed under----
    Ms. Tong. The ``Lifa Fa,'' Legislation Law.
    Ms. Weld. Which makes the Constitution the supreme law of 
China.
    Ms. Tong. Yes. Yes. The funny thing is that in China, it is 
a very sad fact, the government, the rulers violate the 
Constitution and nothing happens. Yet, if normal citizens 
violate a tiny regulation, they have to pay heftily. It is just 
a reality.
    It is very sad, but true. So how to change the Constitution 
from a piece of paper to something very effective, like the way 
the U.S. Constitution is, this is a long-term project for 
Chinese legal reform.
    Ms. Weld. Thank you.
    Would either Liu Gang or Wang Dan want to talk about that 
question, that issue?
    Mr. Liu. Yes, I could give some comments. Just recently, 
there was news that the Chinese Government has a police bureau 
that is trying to make more money.
    So sometimes they just detain some people. If they do not 
have an ID card, they will be sentenced. So after 24 or 48 
hours, they will call your relatives, your parents, and if they 
can pay 300 yuan or something like that, then they can go free.
    If they cannot buy their freedom, they have to be sent to 
the C&R center to work hard to buy themselves free. So this 
answers the question of why products from China are so cheap. 
Some people wonder why their Chinese neighbors can work so 
cheaply.
    I realized that Chinese labor has to be so cheap because 
they are using prisoners. If they do not have some type of job, 
a low-paying job, they have to do it. If they do not have 
enough prisoners, they just randomly detain some people and 
send them to C&R.
    So, I hope the American Government can pay attention to the 
Chinese products, some of them produced by C&R and prisoners.
    Mr. Foarde. All right. Let us go on to Dave Dorman for 
another question.
    Mr. Dorman. Thank you, John. There are many people in this 
country who are looking at the new leadership of China, 
studying their biographies, studying their histories, and 
trying to make some determination of whether we may be in store 
for a change in China in terms of new policies or different 
policies.
    Could you share your insights regarding this new 
leadership? Do you see any room for political reform in China? 
Will the window open slightly with this new leadership or will 
it just be more of the same?
    Mr. Liu. Let me, if I can, fill in a definition. I do not 
think we have a real definition of real legal reform.
    Ms. Tong. I think all of us are not from the inside of the 
leadership, and we do not know any more about these people than 
you do. On the other hand, I was encouraged by Hu's talk on the 
Constitution last year. I do not know whether he will do 
something real about turning the Constitution from a piece of 
paper to something really meaningful for all the citizens in 
China.
    I hope there is some positive development there. I 
certainly sense the legal scholars in China may think there 
might be an environment change. I sincerely hope to see 
something positive coming out of it. But on the other hand, 
just as when were playing under this system, under Deng's 
leadership, and Jiang's leadership, there are certainly power 
struggles within the leadership.
    From the SARS cover-up, we got a sense of that. So the 
future of China's leadership is anybody's guess. I really 
cannot say anything positive or negative about it, probably 
more negative than positive.
    Mr. Wang. Just one comment. I think there is always the 
probability among China's leadership to do political and 
economic reforms. But I believe that they will not do it if 
there is no pressure from the Chinese people and from the 
international community. So, I hope the U.S. Government will 
put pressure on them. I do not expect that they will do that 
automatically.
    Mr. Liu. There are 30 or 40 years of transition. They are 
the hope. They are all of my colleagues or classmates. They all 
have changed since 1989. So 5 to 10 years later, there could be 
new ideas.
    Mr. Foarde. Very useful comments, indeed.
    Let us go to Keith Hand for another question.
    Keith.
    Mr. Hand. I was interested in the observation made by one 
of you that information control, or the Chinese Government's 
capacity for information control, has increased. We have heard 
some testimony in this Commission about a sort of technological 
arms race in terms of controlling the Internet and other 
mediums of information exchange.
    In this most recent case with the SARS outbreak, we have 
read a lot here about how e-mail, text messaging, and other new 
forms of electronic communications help get the word out about 
SARS.
    Looking back on your experiences in the 1980s, do you feel 
it is more difficult now to exchange information freely?
    Ms. Tong. I think I made that comment before. It is 
certainly easier to communicate with the Chinese people right 
now through different mediums, through the Internet, by e-mail, 
by telephone, by fax, by letters. Probably people do not use 
letters anymore.
    But I think the Chinese Public Security Bureau is working 
very hard to establish firewalls against the free flow of 
information. I wish the U.S. Government could do something 
about that, to get around or abolish the firewalls on the 
Internet.
    The Internet is a medium which everybody around the world 
can have access to. How the international community can do 
something about regulating Internet traffic, I think that might 
be something the U.S. Government can do with other countries.
    Mr. Wang. I think that there are certainly more methods and 
it is easier in the 1990s compared with the 1970s and the 
1980s. But it is also more dangerous at this time. People do 
not know that. Most people think, if you get something off the 
Internet, no one will know.
    But actually the police have ways to find out and can get 
it. But during the 1970s, during the Cultural Revolution, with 
Chairman Mao, they knew that it was dangerous. Now, people 
whose e-mail is monitored will be sentenced, so I think it is 
more dangerous.
    Mr. Liu. I agree.
    Mr. Foarde. Let us give the final round of questioning to 
Andrea Worden today.
    Ms. Worden. One of you said earlier that there is a link 
between civil society and democracy. I was wondering if you 
could maybe take another minute to expand and explain your 
ideas.
    Mr. Liu. You know what is happening in China about AIDS. 
Journalists or maybe labor organizations, they are an element 
of civil society that has tried to change things.
    Ms. Worden. That is very helpful. Let me ask a follow-up 
question. In your thinking, will a developed civil society 
automatically lead to political reform? Is that an idea that 
you----
    Mr. Wang. I think that to have democracy in China, we must 
have legal reform, which will have to operate in the political 
system. Another thing, more important than this, is to appear 
as a democratic anchor. So that is why I say that civil society 
is more important.
    Mr. Liu. Just one comment. I believe that the more ways we 
have for China to move toward the kind of democracy movement we 
had in China--for example, Pat Dyson was here attending this 
meeting today. When I was at Beijing University in 1986, Pat 
Dyson was there and had a lot of friends and students.
    Most of these students were a part of the democratic 
movement and set an example, and people fought for contact with 
Western people, and the Chinese people were influenced and knew 
much better about freedom and democracy.
    Ms. Tong. I agree with what Wang Dan said. I think a civil 
society is essential for a functional democracy. People who 
have their own homes and property tend to be more stabilized in 
their country. If they have nothing, if they do not own 
anything, then they tend to be more frustrated.
    So I think civil society is tied with a functional rule of 
law scheme. If China has an effective legal system and then the 
civil society can come out of it and maybe someday China's 
democracy will really be realized. That is certainly what we 
are hoping for here. Thank you.
    Mr. Foarde. Each of you have mentioned history, some of you 
recent history, some of you more ancient history. We are all 
interested in Chinese history as well. We learn at the feet of 
our guru, our resident historian, Susan Weld. So, I am going to 
give her the last question today.
    Susan.
    Ms. Weld. I was very excited to read a speech by Wen 
Jiabao, who gave a speech at Qinghua University on May 4, 
because he referred to the ideals of the May 4 movement as an 
important way now for China's path to the future.
    Since all of you were involved in that important experience 
in 1989, I would like to see now whether those ideals could, in 
fact, be part of the future for China and in what ways they 
might actually play out. Perhaps, Liu Gang.
    Mr. Liu. Actually, I remember that when I was with the 
democratic movement at Beida, it was before June 4. But usually 
that was not allowed, even for such kind of activities in 
China. We, just to ourselves, started the democratic movement.
    I think that there is a relationship and I believe that the 
May 4 movement was the first democracy movement in China's 
history. After that, for a long time, after the Communists took 
control of China, from 1949 until 1976, the democracy movement 
was quiet. But after that, the 1989 movement and the 1976 
movement all take a look back to May 4.
    Ms. Tong. The slogan of the May 4 movement is: ``Mr. 
Democracy and Mr. Science.'' In China, so far the Chinese 
leadership has paid great attention to Mr. Science. The 
majority of the Chinese who are studying here are science 
majors.
    The sad fact of China's leadership, is the first generation 
was ruled by revolutionaries, professional revolutionaries. The 
second generation were technocrats who were trained mainly in 
the Soviet Union.
    We are looking for new leadership, who will be the 
professionals, like the lawyers, doctors, political scientists, 
like what is happening in the United States. Yet, this process, 
to go from technocrats to professional leadership, probably 
will take a long time. But I hope someday China will turn into 
that kind of leadership.
    Mr. Liu. I think science and democracy are still very 
important issues in China. The May 4 movement passed, almost 90 
years have passed, and we still do not have a democracy.
    Mr. Foarde. Well, our time is up. We are going to have to 
leave it there for today. Liu Gang, Tong Yi, and Wang Dan, 
thank you very much for your views and expertise, and coming 
all the way to Washington today to help us.
    We will make an announcement soon about our next issues 
roundtable. But for this afternoon, we will bring this session 
to a close. Thank you all very much.
    [Whereupon, at 4:05 p.m. the roundtable was concluded.]



                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                     Prepared Statement of Liu Gang

                              JUNE 2, 2003

    I want to thank the members and staff of the Commission for 
inviting me to give my views on the Democracy Movement in China.

           PEOPLE WHO INSPIRED THE DEMOCRACY MOVEMENT OF 1989

    The Democracy Movement of 1989 was not a new occurrence that 
suddenly sprung to life in the spring of that year. The Movement of 
1989 had many ancestors in China. All of us who participated could look 
back in history to Sun Yat-sun and Lu Xun for inspiration and even to 
such Communist Party leaders as Peng Dehuai and Hu Yaobang. The jailed 
dissidents such as Wei Jingsheng, Zhang Zhixin and Liu Xiaobo were the 
fathers of our modern movement. Physics Professor Fang Lizhi was our 
teacher and showed us how to stand up to the Party and to speak out for 
democracy and reform. The students who joined the Democracy Movement 
had the opportunity to learn about the importance of non-violence from 
reading about Mahatma Gandhi and Martin Luther King. Certainly the 
dissidents in other Communists countries were examples for us. We 
learned about resistance from Lech Walesa, Vaclav Havel and Dubcek from 
foreign literature. Gorbachev was a leader that we hoped would prod the 
Chinese Communist Party to reform.

                THE STUDENTS OF THE 1980S WERE DIFFERENT

    The student movement itself had been preparing for several years 
before 1989. Many students, teachers and middle-level government 
employees had been holding meetings in Beijing and all of China to 
discuss how to organize a democratic movement and what democracy would 
mean to China. We held what we call ``Democratic Salons'' in Beijing. 
There were even open outdoor meetings on the Beijing University campus. 
The Beijing Social Economic Institute and other groups had laid the 
ground for the democratic movement and many of their members played key 
roles in Tiananmen Square. Only the timing of the demonstrations was 
spontaneous. It was initiated by the death of Hu Yaobang who had been 
dismissed in disgrace for being too soft on the students who had held 
demonstrations in 1986. So none of the planners controlled the actual 
start of the movement. It just erupted hours after Hu's death in 
Beijing and on campuses throughout China. Chinese students in 1989 were 
much more active than other groups such as workers. There are many 
reasons for this. Students had a good deal of independence from the 
CCP. They were selected for admission to universities through 
examinations, rather than Party connections. (Although some of that 
system still existed.) Their parents paid their expenses and the Party 
could not penalize the students very much. The students were also more 
educated, and they had more freedom to assemble in groups for 
discussions. The increased degree of freedom was a most important 
factor. The more freedom they had, the more freedom they wanted. In 
addition, there were many more opportunities to have contacts with the 
Western world and to find out how much freedom to speak and to publish 
existed in other countries. Almost every campus had foreign teacher and 
students. But groups other than students, such as workers and mid-level 
government employees were easily punished by the CCP government. Since 
they could lose their job and even be jailed, it was hard for them to 
join the democratic movement in China. However, once the movement has 
been started and many people have been involved, it became harder for 
the government to track down all the participants. So, workers and 
other groups will feel less risk and joined the democratic movement. 
While many workers joined the 1989 democratic movement because of the 
massive corruption they had to deal with daily. Their participation 
also shows that most of the Chinese want to enjoy freedom and want to 
change the communist regime. They were fully aware that the movement 
was about freedom.

                        SUPPORTIVE ORGANIZATIONS

    The VOA is still one of the best ways of communicating with the 
Chinese people and getting the truth out. Before and during the 
Democracy Movement, we could find out what was happening in the world 
and we could speak out to the world through the VOA. The VOA also gave 
us the news inside China. We had pretty primitive communications in 
1989--FAX, long distance phone lines and students traveling from one 
place to another. All of this took money when the students had very 
little money. But VOA broadcasts every day told us in what cities the 
demonstrations had started and how large they were. In that way we knew 
the spread and size of the movement. It is from VOA, we knew the 
Solidarity Labors Union in Poland, The Prague Spring, as well as other 
democratic movements happened in the world. Then we wanted to have our 
own Solidarity Union and to start our Beijing Spring. I hope that the 
U.S. government will continue to support this priceless service 
generously. I do not think we could have made the advancements we did 
without the VOA. Western journalists broadcast our story and 
interviewed many Chinese students and senior supporters of democracy. 
They explained our positions to the outside world and to other parts of 
China. Western news reports were copied and circulated throughout the 
student community. Our petitions are usually first broadcast by Western 
news agencies. Western students in China also played their part. They 
helped spread our story and since they lived with us in universities, 
they knew our views and understood them better than anyone. I am sure 
that these two groups will continue to be valuable sources for 
information about China's democracy movements in the future.
    Western diplomatic officials in China can also play important roles 
in the democratic movement in China. Winston Lord, the former American 
ambassador in 
Beijing, and his wife Betty Bao frequently showed up and gave speeches 
in our Democratic Salon at Beijing University and other cultural 
seminars in Beijing. Their attendance and speeches inspired our Chinese 
people to a great degree. The opportunities of meeting with western 
diplomatic officials are considered as great honor for most of Chinese. 
I must say that most of Chinese including high rank CCP officials would 
more interested in meeting with American ambassadors than meeting with 
the highest rank CCP officials, including Deng Xiaoping at that time.
    I'd also like to mention Congresswoman Nancy Pelosi. When I was in 
prison, my sister delivered to me some post cards from her, and I heard 
that she went to Tiananmen Square and expressed her concern about human 
rights in China when she visited China in 1992. I was really excited 
and inspired when I found out that she and other American politicians 
were consistently appealing for us. I'm really thankful to her and all 
other Congress members who paid attention to my case, and the cases of 
others who were imprisoned for supporting democracy in China.
    By meeting with western officials, we Chinese not only can know 
more about the value of freedom, but we also felt more safe and 
protected. The CCP government seldom punished people because of 
contacts with western officials. If anyone was punished because of 
these contacts, we believed that the western countries would strongly 
appeal for our freedom and human rights. After Winston Lord gave 
speeches on June 1st, 1988, at our Salon in Beijing University, some 
other western diplomatic officials including those from Britain, 
Australia, and even some high rank CCP officials including Wang Meng, 
the former minister of Chinese Culture Department, and Deng Pufang, the 
eldest son of Deng Xiaoping, all showed interest in 
giving speeches to our Salon. So, I wish the current American 
ambassador in Beijing would do the same as Winston Lord and Betty Bao 
Lord did during 1980s. Believe me, the CCP government listens more to 
the American ambassador than to the Chinese people, and the Chinese 
people respect the American ambassador more than the Chinese 
government!

                     DEMONSTRATIONS AND ORGANIZING

    In most cases in Chinese political movements, demonstrations start 
first and then organizations are set up during the demonstrations. The 
June 4th Movement is an example of demonstrations first, then followed 
by organization. But political movements are much more successful, if 
started by mature well-organized groups. The Falun Gong demonstration 
in Beijing was successful because it was a well-organized organization. 
Unfortunately, it has since been brutally suppressed.
    Independent political organizations cannot exist for long in 
present-day China. The government soon arrests any leaders such as 
those of the Chinese Democracy Party, when they become widely known. I 
still recommend that any group that intends to have an effect on 
Chinese politics to stress organization before demonstrations. When 
demonstrations do break out, it is very helpful if American and other 
politicians issue public statements and pass resolutions of support. 
They are heard in Beijing. They were in 1989.

                               MY APPEAL

    My thanks to all of you for your consistent concern and appeals for 
releasing 
Chinese political prisoners. I want to thank the American people for 
providing us with political asylum here. I hope you do not forget the 
political prisoners, including Wang Bingzhang, Wang Youcai, Yao Fuxin, 
Xiao Yunliang, Huang Qi, as well as the thousands of Falun Gong 
practitioners who are jailed in China. I hope you will continue to 
speak out for them until all political prisoners are released. Please 
remember that your voices are very effective tool when talking with the 
CCP government.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Prepared Statement of Tong Yi

                              JUNE 2, 2003

           Kidnapping by Police: The Sun Zhigang Case Exposes

                      ``Custody and Repatriation''

                              INTRODUCTION

    While the SARS outbreak has drawn attention all around the world, 
an individual murder case has attracted attention inside China. The 
case exposes the serious police abuse that routinely takes place within 
the PRC's Custody and Repatriation (C&R) system. My own personal 
impressions of this system are vivid, because in 1996 I spent a hellish 
11 days within its clutches. I am now glad for the opportunity to call 
your attention to this system of police-sponsored kidnapping that 
relies on ``regulations'' that are unconstitutional even by PRC legal 
standards. On the C&R issue, China's human rights certainly have not 
improved since 1989. They clearly have gone the other direction.

                          THE SUN ZHIGANG CASE

    Sun Zhigang, a college graduate from Hubei Province, went to 
Guangzhou early this year to take up employment. On the night of March 
17, police in Guangzhou detained him for failing to show a temporary 
resident permit and sent him to a C&R center. Three days later, a 
friend of Sun's was notified to collect his body from the center's 
infirmary.
    Sun's parents in Hubei, incredulous at what had happened to their 
son, traveled to Guangdong and approached government agencies seeking a 
``reason'' why their son had died. After a month of watching their 
inquires fall upon deaf ears, they 
decided to bring the story to the Southern Metropolitan News, which did 
its own investigation and then published a full account on April 25. 
Other local and national newspapers then picked up the story and it 
quickly became a national issue. Controversy now centers on three 
questions: (1) the criminal investigation of cases like this; (2) the 
prevalence of police abuse; and (3) the constitutionality of the C&R 
system.

            THE GOVERNMENT'S STATED REASONS FOR A C&R SYSTEM

    The C&R system arose from a 1961 Party directive entitled 
``Forbidding Free Movement of the Population.'' In 1982 the State 
Council added ``Measures for the Custody and Repatriation of Vagrant 
Beggars in Cities.'' The ostensible purpose of these orders was to 
provide shelter for homeless people in cities. More fundamentally, 
though, the goal was to strengthen the ``hukou'' registry system, which 
privileges urban over rural residents in many ways. A full account of 
the evils of the hukou system is beyond my scope here, but the system's 
fundamental purpose, from the government's viewpoint, has always been 
to enforce the social stability upon which the security of its 
political rule depends. The Party and State Council directives provide 
a warrant for arresting and deporting back to the countryside any 
farmer who enters a city ``illegally.''
    Because of the original claim of a connection between C&R and 
welfare, the day-to-day activities of C&R centers fall under the 
Ministry of Civil Affairs. In practice, however, the Public Security 
apparatus, especially local police, run the system. The official 
language of the Ministry of Civil Affairs says:

          Custody and Repatriation is a forcible administrative 
        apparatus under which the Civil Affairs departments and Public 
        Security bureaus may send back to their places of hukou 
        registration any persons whose homes are in the rural areas and 
        who have entered cities to beg; urban residents who are roaming 
        the streets and begging; and other persons who are sleeping in 
        the open or have no means of livelihood. This measure is 
        employed by the State to provide relief, education and 
        resettlement to those persons who are indigent and begging in 
        the cities, so as to protect urban social order and stability 
        and unity.

    In practice, detainees in C&R centers tend to be the poor; the 
mentally ill; migrant workers; women who have been kidnapped for sale 
on an underground market; and ``petitioners''--meaning people who have 
entered cities to seek redress of injustices from government officials. 
Estimates of the numbers detained, since 1989, run into the millions.

                       THE C&R SYSTEM IN PRACTICE

    High-sounding language about ``welfare'' notwithstanding, the C&R 
system for more than a decade has been dominated by extortion. Police 
use it to kidnap the powerless and demand ransom from their families or 
friends. The State goes along with this because it serves 
``stability,'' and because the system can be used to clean up riffraff 
and thereby ``beautify'' city streets in advance of august events like 
a Party Congress, the visit of a foreign dignitary, or a bid to host 
the Olympics. All such values trump the rights of ordinary citizens.
Arbitrary detention
    The most vulnerable citizens are ``Three No's'' people-those with 
no ID card, no temporary resident permit, and no work permit. Even 
people who have such documents can be swept up if they dress shabbily, 
have funny-sounding accents, or seem to loiter. Recently a migrant 
worker who was picked up for his outlandish accent made the mistake of 
showing his documents--only to have the police rip them up and bring 
him to a C&R Center anyway.
Physical abuse
    The conditions in the C&R Centers are about as bad as one can 
imagine. Food and sanitary conditions are abominable, worse than in 
regular prisons and labor camps. Detainees are routinely subjected to 
beatings by police or by cell bosses. Sun Zhigang is by no means the 
only detainee to have died from  the torture and beatings.
Extralegal ransom
    For the police, the possibility of using the C&R system to collect 
ransom becomes an incentive to detain as many people as possible. With 
the collapse of public morality during China's post-Mao years, added to 
the devil-take-the-hindmost pursuit of money, there are no effective 
brakes on this kind of abuse of police power. C&R becomes an open field 
from which police rip off whatever they can. I experienced a small 
taste of this practice in my own case. In late 1996, when I was 
released from two and a half years of Reeducation through Labor, I 
traveled from Wuhan to Beijing to see my sister. Police met me at the 
Beijing railway station and sent me straight to a C&R center. No 
explanation. I spent 11 days without enough food and in filthy 
conditions. Then the police ``repatriated'' me to back to Wuhan, and 
when I arrived, my parents were forced to pay for my room and board 
during C&R and my train ticket back home.

               THE INVESTIGATION OF THE SUN ZHIGANG CASE

    After the media publicized Sun's story, the Central Government 
ordered the ``relevant authorities'' to investigate the case and punish 
the perpetrators as seriously and as quickly as possible. The criminal 
investigation was then passed down to Guangdong provincial authorities, 
where it went forward in secret. There is every reason to believe--
because it happens in similar cases--that the ``investigation'' 
eventually fell near or directly to the same authorities who were 
responsible for the original crime. In any case, very quickly, on May 
13, the New China News Agency reported that 13 suspects had been 
arrested. Five were workers at the infirmary where Sun died, and eight 
were other detainees at the same infirmary.
    Few serious analysts take this official report as much more than a 
whitewashing. There is no explanation, for example, for why Sun was 
moved to an infirmary in the first place. He had arrived at the C&R 
center 24 hours before his move to an infirmary. What happened during 
those 24 hours? What caused his symptoms, apparently of a beating? 
Records show that Sun was unconscious during his stay in the 
infirmary--and yet the official investigation claims that other 
detainees at the infirmary had beaten him. Other sick people were 
beating an unconscious man?
    From a legal point of view, the huge problem that this case points 
up is that there is no separation of power between the administrative 
authority and the investigative authority. Essentially, the police are 
charged with investigating the police. This systemic flaw spawns many 
other abuses: judgment is rushed, innocents are scapegoated, the true 
perpetrators are protected, a false story is publicized, and, after it 
is announced, only leads to widespread public cynicism.

                     CONSTITUTIONAL SCRUTINY OF C&R

    On or around May 16, three citizens with Ph.D. degrees in law from 
Beijing University submitted a petition to the National People's 
Congress to re-examine the 1982 ``Measures for the Custody of 
Repatriation of Vagrant Beggars in the Cities.'' Their petition held 
that the PRC's Administrative Punishment Act as well as its Legislature 
Act provide that deprivation of a citizen's freedom can be done only by 
laws, and that such laws must be passed by the National People's 
Congress or its Standing Committee. The State Council and the various 
Provinces have no power to make regulations that in effect deprive 
citizens of their personal freedom.
    This petition highlights the sad fact that, in China, when rulers 
violate the Constitution nothing happens, but when ordinary citizens 
violate a local rule, they can have hell to pay. For this reason some 
observers feel that the current petition, if successfully pressed, can 
have at least as large an impact as the publication of the Sun Zhigang 
case. It is the first example in PRC history in which ordinary citizens 
are trying to use the Constitution to constrain the power of State 
organs. Since the core of the rule of law is to restrain governmental 
power, this petition deserves the careful attention of anyone 
interested in the rule of law in China.

                              CONCLUSIONS

    In view of the expansion of the C&R system in China over the last 
15 years, one can only conclude that the human rights of personal 
freedom and freedom of movement have suffered setbacks. C&R, like the 
Reeducation through Labor system, has no legal basis even under PRC 
standards. It clearly violates international human rights norms. It 
should be abolished in its entirety.
    Sun Zhigang's death has alarmed many people and redirected their 
attention to the C&R issue. Some even have begun to use the 
Constitution to challenge the whole system. Whether or not this ferment 
might possibly lead to an end of the C&R system is hard to say. I 
sincerely hope that this Commission can help to highlight the issue and 
do whatever it can to bring pressure to abolish the system.
    For more information on C&R in China, please go to Human Rights in 
China's web site: www.hrichina.org, where it posts two detailed 
reports:

    (1) Not Welcome at the Party: Behind the ``Clean-Up'' of China's 
Cities-A Report on Administrative Detention Under ``Custody and 
Repatriation'' (1999);
    (2) Institutionalized Exclusion: The Tenuous Legal Status of 
Internal Migrants in China's Major Cities (2002).
                                 ______
                                 

                     Prepared Statement of Wang Dan

                              JUNE 2, 2003

    First, I want to thank the Commission for allowing me the 
opportunity to share some of my opinions and ideas. It is my great 
honor to be able to speak before you today.
    It has been 14 years since the June 4 Tiananmen massacre of 1989. 
If we want to attempt to summarize the changes in China over these past 
14 years, I think there are three things that need to be noted. First, 
I think we can all agree that there has been much progress in China in 
terms of economic freedoms. Second, even at the social level, people 
have more space for freedom. But in terms of democratic politics and 
political reform, I can say that there really has been no change or 
progress whatsoever. The lack of transparency and openness was most 
notably revealed in the recent case of the cover-up of the SARS 
epidemic.
    With respect to this latter situation I have five points to share 
with you today. I think we can admit that there has been some progress 
on human rights. But I think that this progress, at least partly, if 
not completely, is due to the pressure from the international 
community. As an example we can look at the period between 1992 and 
1997. During that time there was consistent considerable pressure from 
the West and as a result human rights violations in China decreased 
notably. After 1997, however, when the pressure was relaxed, there was 
substantial erosion of China's human rights record. Therefore, I 
strongly believe that the United States and other Western countries 
should keep up their ongoing pressure on China to improve its human 
rights situation. I disagree with those who fear that if the United 
States keeps up its human rights pressures on China that this will have 
a negative effect on Sino-U.S. relations.
    Second, it is obvious that China still lacks a mature civil 
society. However, over the last 14 years we have witnessed the gradual 
emergence of a developing civil society. I think that it is very 
important that the United States pay attention to these sprouts of 
civil society in China and do all that it can to cultivate them. I 
believe that it is short-sighted for the United States Government only 
to focus on the actors in the Chinese government and the Chinese 
Communist Party. Therefore, I think that the United States China policy 
should move from attention only on human rights issues to other issues 
of political reform and democratic politics. One way that the United 
States can do this is to provide support for NGOs and universities in 
China as a way to promote social contacts.
    Third, as the United States is facing the challenge of terrorism in 
the new century, I can completely understand the necessity to 
strengthen its strategy against terrorism. However, I am worried that 
an unfortunate side-effect of this strategy may be a tightening of the 
United States policy that allows Chinese students and scholars to come 
to the States for exchanges, study, and visits. As one of the 
beneficiaries of this program myself, as well as a beneficiary of the 
human rights pressure from the international community, I sincerely 
hope that this will not occur. The current generation of overseas 
Chinese students, sooner or later, will return to China, and I believe 
they will be a motivating force for the further development of reform 
in China, including political reform. Therefore, I think it is 
important that the United States Government allow this door to remain 
open, and even to open it wider by expanding its contacts with the 
Chinese students already in America.
    Fourth, it is not enough for the United States Government merely to 
take a general stand to promote democracy in China. I think a more 
detailed and in-depth strategy is required, for instance based on 
specific cases, such as projects promoting the rule of law, freedom of 
the press, or workers rights. There are many worthwhile projects that 
are being undertaken in China today, and I and my colleagues would be 
happy to introduce them to you. However, I think a note of caution is 
necessary with respect to support from the United States to projects 
being carried out within China. This is a very sensitive issue and 
there is a thin line between seeing support for such projects because 
they are meant to help China and seeing support for such projects 
because they are meant to prevent China from becoming strong. It is 
very easy for many Chinese people to misinterpret the intentions from 
abroad. Therefore, it is advisable to first make contacts with the 
liberal intellectuals in China who are more open-minded about aid and 
support from abroad.
    Fifth, when I noted above that the United States should transfer 
its focus from human rights issues to democracy, I do not mean to imply 
that human rights issues are not important. I would like to use this 
chance to raise the cases of Wang Bingzhang, which I am sure you are 
all aware of; Yang Jianli who attempted to return to China last year 
and since then has been held incommunicado by the Chinese government; 
Li Hai who reported information to the outside world about prisoners in 
China and as a result was sentenced in 1995 for 9 years; Yang Zili who 
organized political discussions and now faces a long-term sentence; and 
Huang Qi who used the Internet to spread ideas of political reform and 
last month was sentenced to 5 years in prison.
    China is now entering a crucial period. It is impossible to predict 
whether future developments will be positive or negative. But there is 
one thing that we certainly can all be sure of. That is, there are a 
number of things that we on the outside can do to help China. Even 
though I am studying in America now, my long-term plan remains to 
return to my country. Working together with a group of young educated 
Chinese in the States and elsewhere who are concerned about China's 
future, we hope to increase cooperative efforts with all parts of 
American society, including Congress, to bring about eventual political 
change in China.


</pre></body></html>
